  OFFICE OF THE INSPECTOR GENERAL




           EVALUATION OF THE
U.S. INTERNATIONAL TRADE COMMISSION’S
FISCAL YEAR 2007 INFORMATION SECURITY
        PROGRAM AND PRACTICES


            AUDIT REPORT
            OIG-AR-04-07




                                  October 1, 2007
OFFICE OF INSPECTOR GENERAL




           UNITED STATES INTERNATIONAL TRADE COMMISSION

                                     WASHINGTON, DC 20436

October 1, 2007                                                                           IG-EE-023

MEMORANDUM

TO:        THE COMMISSION

We hereby submit Audit Report OIG-AR-04-07, Evaluation of the U.S. International Trade
Commission’s Fiscal Year 2007 Information Security Program and Practices. We conducted an
independent evaluation of the Commission’s information security program and practices to
determine if the Commission: (1) implemented appropriate actions to correct weaknesses
identified in prior-year OIG FISMA audit reports; and (2) met Federal Information Security
Management Act criteria.

We found the Commission made some progress in strengthening its information technology
security program during the 2007 fiscal year. The Commission fully implemented 2 of the 12
prior-year recommendations, leaving 10 with further action required. This review did not address
the status of four additional FISMA prior-year recommendations pertaining to our technical
review of the ITC-Net. The results of that review were reported on June 5, 2007 in audit report
Evaluation of the U.S. International Trade Commission's Fiscal Year 2006 Network Security
Controls Audit Report (OIG-AR-03-07).

In addition to the ten open prior-year recommendations, this report identifies five new
weaknesses. These weaknesses relate to:

      1.   Administration of the Plans of Action and Milestones
      2.   Compliance with E-Authentication risk assessment requirements
      3.   Annual security controls testing and evaluating
      4.   Security awareness training for new employees and contractors
      5.   Implementation of required minimum security controls

On receiving the Commission’s strong disagreement with our interpretation of the requirements
related to E-Authentication risk assessments, we requested OMB to provide further guidance on
the requirement. As of the date of this report, we have not received that guidance. Therefore, we
are putting our finding and two recommendations related to E-Authentication risk assessments on
hold until we discuss this issue with OMB. A discussion on compliance with E-Authentication
risk assessment requirements is presented in Section B of this report along with management’s
comments.

We made seven new recommendations to improve the Commission’s IT security. The
Commission did not agree with two recommendations. Additionally, for four of five agreed upon
recommendations, the Commission did not provide planned actions to correct the weaknesses.
The OIG stands by its findings and encourages prompt action towards implementing the
recommendations in this report.

We incorporated the response in the body of this report and included it in detail as Appendix C.




                                                                 Jean Smith
                                                                 Acting Inspector General


CC:     Cotton & Company LLP



Due to the sensitive nature of the information contained in our report, we
have limited distribution of the report.
